<html>
<title> - REFORM TO THE PRESIDENTIAL LIBRARY DONATION DISCLOSURE PROCESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
     REFORM TO THE PRESIDENTIAL LIBRARY DONATION DISCLOSURE PROCESS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2007

                               __________

                           Serial No. 110-30

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
39-022                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 28, 2007................................     1
Statement of:
    Fawcett, Sharon, Assistant Archivist for Presidential 
      Libraries, National Archives and Records Administration; 
      Celia Viggo Wexler, vice president of advocacy, Common 
      Cause; and Sheila Krumholz, executive director, Center for 
      Responsive Politics........................................    13
        Fawcett, Sharon..........................................    13
        Krumholz, Sheila.........................................    36
        Wexler, Celia Viggo......................................    28
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................     8
    Fawcett, Sharon, Assistant Archivist for Presidential 
      Libraries, National Archives and Records Administration, 
      prepared statement of......................................    16
    Krumholz, Sheila, executive director, Center for Responsive 
      Politics, prepared statement of............................    38
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     3
    Wexler, Celia Viggo, vice president of advocacy, Common 
      Cause, prepared statement of...............................    30


     REFORM TO THE PRESIDENTIAL LIBRARY DONATION DISCLOSURE PROCESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m., in 
room 2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, Clay, 
Braley, Norton, Hodes, Sarbanes, Welch, Davis of Virginia, 
Platts, Duncan, Issa, Westmoreland, Foxx, and Bilbray.
    Staff present: Phil Schiliro, chief of staff; Kristin 
Amerling, general counsel; Karen Lightfoot, communications 
director and senior policy advisor; Michelle Ash, chief 
legislative counsel; Anna Laitin, professional staff member; 
Earley Green, chief clerk; Teresa Coufal, deputy clerk; Roger 
Sherman, counsel; Tony Haywood, staff director, Information 
Policy Subcommittee; Adam Bordes, professional staff member, 
Information Policy Subcommittee; David Marin, minority staff 
director; Larry Halloran, minority deputy staff director; 
Jennifer Safavian, minority chief counsel for oversight and 
investigations; Keith Ausbrook, minority general counsel; Ellen 
Brown, minority legislative director and senior policy counsel; 
Mason Alinger, minority deputy legislative director; Steve 
Castor and Charles Phillips, minority counsels; Allyson 
Blandford, minority professional staff member; Patrick Lyden, 
minority parliamentarian and member services coordinator; and 
Benjamin Chance, minority clerk.
    Chairman Waxman. The meeting will come to order.
    Today the committee is holding a hearing on the need for 
public disclosure of donations to Presidential libraries. Under 
current law, private organizations established for the purpose 
of building a Presidential library can raise unlimited amounts 
of money from undisclosed donors while the President remains in 
office. It takes nothing more than common sense to see the 
potential for abuse in this area and the need for basic reform.
    Presidential libraries serve an important purpose as 
depositories of Presidential papers and centers for historical 
research. In 1939, President Franklin Roosevelt came up with 
the idea of a privately built but federally maintained library 
to house his Presidential papers. This split of 
responsibilities between the public and the private sectors has 
continued and has since been codified into law. In 1955, the 
Presidential Libraries Act formally established a system under 
which federally maintained libraries would be built using funds 
raised by private organizations. More recent amendments have 
required these private organizations to provide an operating 
endowment to the National Archives in addition to the library 
building.
    Just as the funding requirements have grown, so have the 
libraries and their affiliated institutions. Now these 
libraries are much more than basic research facilities. They 
include museums and conference centers, along with other 
tourist attractions, and they are getting more expensive all 
the time.
    The George H.W. Bush library was reported to cost more than 
$80 million to build. The Clinton Library and Museum cost about 
$165 million to build. One extra term, doubled the money. News 
reports have indicated that the fundraising goal for President 
Bush's library is $500 million, half a billion dollars, before 
this institution is completed.
    The vast scale of these secret fundraising efforts creates 
opportunities for abuse. Donors who do not need to be 
identified can give unlimited amounts of money to support these 
libraries while the President remains in office. According to 
some accounts, some mega-donors being courted to fund the Bush 
Library are expected to contribute $10 to $20 million each, and 
they may make these contributions while there are nearly 2 
years left in President Bush's term.
    Later this week Representative Duncan and I will be 
introducing legislation to reform this system. This legislation 
would require that Presidential libraries disclose the identity 
of their donors to Congress and the National Archives during 
their period of most intense fundraising, which is while the 
President is in office and in the several years after the end 
of his or her term.
    I expect the committee to consider this legislation next 
week. This legislation is one part of a larger effort by this 
committee to restore honesty and accountability to the Federal 
Government. In fact, the committee will soon be considering two 
additional open government bills, one to improve access in 
Presidential records and one to strengthen the Freedom of 
Information Act.
    As we will learn at today's hearing and when we mark up the 
open government legislation, these bills are bipartisan 
initiatives with broad public support.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T9022.001

[GRAPHIC] [TIFF OMITTED] T9022.002

[GRAPHIC] [TIFF OMITTED] T9022.003

[GRAPHIC] [TIFF OMITTED] T9022.004

    Chairman Waxman. I would like to now recognize Mr. Davis 
for his opening statement.
    Mr. Davis of Virginia. Thank you, Mr. Chairman, for holding 
this hearing today.
    Our Nation's Presidential libraries are a priceless 
resource for researchers, historians, and the public. 
Attracting millions of visitors each year, they serve as 
legacies to our President, repositories of history, and a 
source of tremendous pride for local communities. At the same 
time, they have become elaborate institutions, housing official 
papers, museums, classrooms, conference facilities, and even 
gift shops. With this expansion, the cost of building and 
maintaining these facilities has grown dramatically.
    Under current law, Presidential libraries are built with 
private funds, then turned over to the archivists for 
operation. Amendments to the Presidential Libraries Act 
mandated the establishment of an endowment to cover some of the 
costs of operating the library, which are usually met through 
the establishment of a charitable organization. Funding for 
construction and the endowment comes from private sources, but 
under current law no duty to disclose the source of those 
contributions exists. Clearly, there is a great deal of 
interest in enhancing disclosures on both sides of the aisle.
    Under our colleague Mr. Duncan's lead, we passed solid 
bipartisan legislation to require the disclosure of 
contributions to organizations that raise funds for 
Presidential libraries and related facilities. His bill, which 
was H.R. 577 from the 107th Congress, passed this committee and 
the House with strong bipartisan support.
    Regardless of what we do, I think it is of utmost 
importance that we avoid any temptation to politicize the 
issue. We need a sensible, even-handed approach to disclosure, 
one that applies equally to Republicans and Democrats. Mr. 
Duncan had the right approach, one that was supported by 
Chairman Waxman and many others in this committee, and now the 
committee will consider legislation on this issue, too and I 
hope again will resist inserting politics into a bill the House 
passed overwhelmingly last year by a vote of 392 to 3.
    With this legislation we are recognizing the perception of 
impropriety that contributions to a Presidential library can 
raise. We don't need to reopen old news or begin inflicting new 
ones today.
    Presidents leave their mark on our rich history, and those 
giving to Presidential libraries should be proud to have their 
donations publicly disclosed.
    Mr. Chairman, our goal should be, unanimous vote in the 
committee and on the House floor. I look forward to working 
with you to craft bipartisan legislation. I know that you 
agree.
    The cost of building Presidential libraries, millions; the 
value of disclosing contributions to those libraries, 
priceless.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T9022.005
    
    [GRAPHIC] [TIFF OMITTED] T9022.006
    
    [GRAPHIC] [TIFF OMITTED] T9022.007
    
    [GRAPHIC] [TIFF OMITTED] T9022.008
    
    Chairman Waxman. Thank you very much for your opening 
statement.
    Without objection, all Members will have a week to submit 
opening statements for this hearing.
    I will be pleased to recognize any Member who wishes at 
this point to be called upon to give an opening statement at 
the hearing. Let me just see if any Member seeks recognition. 
This side, Mr. Kucinich, opening statement? Mr. Duncan.
    Mr. Duncan. Mr. Chairman, thank you very much. You and 
Ranking Member Davis have outlined the need for this 
legislation. It is correct that I introduced this bill in the 
106th Congress under a Democratic President. It was not acted 
on in that Congress. I introduced it again in the 107th 
Congress under a Republican President. It was passed in the 
House by a vote of 392 to 3, with strong bipartisan support.
    I first became interested in this after learning that even 
some people from foreign countries were making very large 
contributions to Presidential libraries while Presidents were 
still in office, obviously in an attempt to gain influence. I 
introduced this bill many months before any publicity occurred 
about Mark Rich, the man who President Clinton pardoned on his 
last day in office, who had fled the country to evade $40 
million in income taxes, and it turned out that his wife had 
contributed $450,000 to the Clinton Presidential Library, and a 
close friend of Mr. Rich's had contributed another million to 
the Clinton Library.
    So this is not aimed at any Democrat or any Republican. It 
is a bipartisan bill. It simply does not seek to limit 
contributions in any way, it just is a public disclosure bill.
    This bill was introduced in the last Congress by our 
current Speaker, Speaker Pelosi, so I can assure you that it 
has strong support from both sides.
    I appreciate, Mr. Waxman, your taking the lead on this bill 
at this time. I will be pleased to work with you in any and 
every way possible.
    Thank you very much.
    Chairman Waxman. Thank you very much for your statement.
    Does any other Member wish to be recognized?
    [No response.]
    Chairman Waxman. If not, we are pleased to have with us 
three distinguished witnesses. Let me indicate who they are.
    Sharon Fawcett is the Assistant Archivist for Presidential 
Libraries at the National Archives and Records Administration; 
Celia Viggo Wexler is representing Common Cause, an advocacy 
organization dedicated to improving public participation in 
government and reducing the influence of special interests; 
Sheila Krumholz is the executive director of the Center for 
Responsive Politics, a research organization that tracks the 
role of money in politics.
    It is the practice of this committee to swear in all 
witnesses, so you are not being singled out, but I would like 
you to rise and raise your hands and take an oath.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that each of the 
witnesses answered in the affirmative.
    We have your prepared statements. They will be made part of 
the record in their entirety. We would like to ask, if you 
would, to try and keep the oral delivery to around 5 minutes.
    Ms. Fawcett, why don't we start with you.

     STATEMENTS OF SHARON FAWCETT, ASSISTANT ARCHIVIST FOR 
     PRESIDENTIAL LIBRARIES, NATIONAL ARCHIVES AND RECORDS 
ADMINISTRATION; CELIA VIGGO WEXLER, VICE PRESIDENT OF ADVOCACY, 
 COMMON CAUSE; AND SHEILA KRUMHOLZ, EXECUTIVE DIRECTOR, CENTER 
                    FOR RESPONSIVE POLITICS

                  STATEMENT OF SHARON FAWCETT

    Ms. Fawcett. Mr. Chairman, Mr. Davis, and members of the 
committee, I want to begin by thanking you for holding this 
hearing today and for inviting me to testify.
    Having spent a large portion of my professional life in the 
Presidential library system, I am delighted to be able to offer 
some background on the Presidential libraries and their 
multiple benefits to scholarship, public policy, education, and 
a more complete understanding of our democracy.
    As I think the chairman knows, this has been a most 
successful public/private partnership and we greatly appreciate 
the opportunity to explain why our relationship with our 
foundations has been a large part of our success for 66 years 
and 12 Presidential administrations.
    If you invite an archivist to testify, you have to start 
with a little history. Nearly 70 years ago, as the chairman 
noted, Franklin Roosevelt proposed creating a Presidential 
library that would be part of the National Archives. Roosevelt 
suggested a novel approach: he would donate the land, himself, 
and build the library with private funding, and then give the 
library and his papers to the National Archives.
    On June 30, 1941, the war in Europe threatened democracy. 
Roosevelt dedicated his library at Hyde Park.
    President Truman, deploring the loss of Presidential papers 
in the past, stated such destruction should never again be 
permitted, because the truth behind a President's actions can 
be found only in his official papers, and every Presidential 
paper is official. Truman felt strongly that Presidential 
libraries were not to be monuments to a President, but centers 
for the study of the Presidency.
    Over time, the venue for Presidential libraries shifted 
from the President's hometown to larger metropolitan areas or a 
university campus. The Kennedy, Johnson, Ford, Bush, and 
Clinton Libraries are affiliated with university sites.
    As historian Michael Bechloss noted on the News Hour with 
Jim Lehrer just a week or two ago, there is a dynamism when a 
library is at a university.
    In 1996 Congress passed various amendments to the previous 
act to reduce the cost to the public of operating Presidential 
libraries, one of which requires that a minimum endowment equal 
to 20 percent of the cost of the building to be transferred to 
the Government be turned over to the National Archives. On the 
day the Bush Library was dedicated, the Bush Foundation 
presented a check for $4 million. Likewise, the Clinton 
Foundation presented a check for $7.2 million at its 
dedication. These endowments are used by the Government to 
offset such operational costs as security, utilities, and 
building services. The foundations, themselves, continue to 
provide ongoing support for exhibits and public programming at 
the libraries.
    I should also note that in 2002 Congress raised the base 
endowment requirement to 40 percent of the cost of a library to 
take effect for the library built after the incumbent George W. 
Bush.
    The materials in Presidential libraries are among the 
Nation's most important documents. Presidential records are 
often open for research long before the records of the 
departments and agencies of Government are even transferred to 
the National Archives. Government archivists and curators 
preserve, process, and provide access to the Presidential 
materials in their care.
    In 1941 the Roosevelt Library cost $369,000, or about $4 
million in today's dollars. Later expansions for added archival 
storage, education classrooms, and visitors' services bring the 
total cost of the Roosevelt Library to $26 million in today's 
dollars. The Bush Library, at least the portion transferred to 
the Government, cost a little over $22 million, and likewise, 
the Clinton Library, $36 million.
    The Presidential Libraries Act requires NARA to certify a 
library meets our exacting standards for construction and 
archival presentation before we accept the library. We also 
encourage the foundations to build energy efficient buildings.
    In 1973, James B. Rhoads, then the Archivist of the United 
States, noted the evolving role of the foundations when he told 
an education symposium at the Lyndon Johnson Library, 
``Presidential libraries would be fulfilling their purpose if 
they did nothing more than preserve and provide access to the 
papers they contain, but their charters are broad and their 
possibilities for service are unlimited.''
    However broad these charters may be, the libraries face 
limitations imposed by financial reality. Taxpayers are under 
no obligation to fund a temporary exhibit on World War II, a 
conference on civil rights, or education efforts aimed at high 
school students, admirable and useful as these undeniably are 
to the public. These efforts are funded by the library support 
organizations, which continue to raise money long after the 
library is built and transferred to the government.
    Small foundations such as Hoover and Eisenhower contribute 
$80,000 and $130,000 respectively in a typical year in support 
of library programs. Foundations with larger endowments and 
development staff plan to contribute from $450,000 to $1.75 
million this fiscal year in support of museum, education, and 
public programs.
    The Reagan Foundation invested $35 million in expanding the 
library by adding the Air Force I Pavilion and plans to invest 
another $3.5 million to build a Discovery Center staffed by 
education specialists from the library.
    The contributions of these support organizations to the 
libraries spell the difference between static repositories and 
lively, vital centers of scholarship and service to the public. 
Moreover, many of the foundations now contribute to the 
advancement of Presidential scholarship through joint library 
projects. The first ever joint conference of all the 
Presidential libraries happened in March 2006, at the Kennedy 
Library, and provided a timely discussion by scholars, 
journalists, and policymakers on the lessons of Vietnam. In 
November of this year, we will hold our second joint conference 
on the Supreme Court at the Roosevelt Library. This will take 
place in the 70th year from Roosevelt's court-packing proposal.
    The leadership and financial support of the Johnson 
Foundation enabled the creation of the Presidential time line, 
an interactive Web-based resource that provides learning 
activities and a cornucopia of digitized assets from all the 
libraries that is freely accessible to students and educators 
from around the world.
    Directly appropriated funds, about $58 million annually for 
the 12 libraries and the central office, pay for activities 
mandated by law as part of NARA's mission. These include 
accessioning, processing, reference, and preservation of 
materials held in the libraries.
    As existing buildings became cramped and obsolete, many 
foundations have supported efforts to update and expand library 
buildings. Public funds to expand spaces in libraries have 
often been contingent on the ability of the foundations to 
raise additional funds to pay for portions of the construction 
and support the program functions in these expanded spaces.
    In summary, the libraries and their support organizations 
have demonstrated an entrepreneurial willingness and a 
commitment to public service, their willingness to rely upon 
financial sources other than the American taxpayer.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions.
    [The prepared statement of Ms. Fawcett follows:]

    [GRAPHIC] [TIFF OMITTED] T9022.009
    
    [GRAPHIC] [TIFF OMITTED] T9022.010
    
    [GRAPHIC] [TIFF OMITTED] T9022.011
    
    [GRAPHIC] [TIFF OMITTED] T9022.012
    
    [GRAPHIC] [TIFF OMITTED] T9022.013
    
    [GRAPHIC] [TIFF OMITTED] T9022.014
    
    [GRAPHIC] [TIFF OMITTED] T9022.015
    
    [GRAPHIC] [TIFF OMITTED] T9022.016
    
    [GRAPHIC] [TIFF OMITTED] T9022.017
    
    [GRAPHIC] [TIFF OMITTED] T9022.018
    
    [GRAPHIC] [TIFF OMITTED] T9022.019
    
    [GRAPHIC] [TIFF OMITTED] T9022.020
    
    Chairman Waxman. Thank you very much, Ms. Fawcett.
    Ms. Wexler, we want to hear from you.

                   STATEMENT OF CELIA WEXLER

    Ms. Wexler. Chairman Waxman, Ranking Minority Member Davis, 
and members of the committee, I am Celia Wexler, vice president 
for advocacy for Common Cause.
    Common Cause appreciates the opportunity to testify on this 
important matter. As our written testimony indicates, Common 
Cause strongly supports full, timely, and publicly accessible 
disclosure of donations to the non-profit groups that raise 
funds for Presidential libraries and their affiliated 
institutions. In 2001, we testified in support of 
Representative Duncan's library disclosure bill, and we look 
forward to supporting the Waxman-Duncan proposal.
    Aside from getting re-elected, what means more to a 
President than his or her legacy? Given how invested Presidents 
have become in protecting and enhancing that legacy, and given 
the fact that gifts to Presidential libraries are undisclosed 
and unlimited, you can quickly perceive the potential for 
mischief. A special interest, a major corporation, wealthy 
individual, foreign government, or foreign national can give in 
secret millions of dollars to help build a Presidential library 
complex. And they can give these undisclosed donations while 
the President remains in office. They can use these donations 
to curry favor with a sitting President, or to influence former 
Presidents who continue to occupy the world stage and who may 
even be related to current Presidents or Members of Congress.
    These large donations will only get bigger if the trend for 
ever-larger library complexes continues. And I think Chairman 
Waxman has talked about the dramatic escalation of costs for 
these complexes over the years: $26 million for the Carter 
Library, $57 million for the Reagan, $83 million for the Bush 
complex, $165 million for the Clinton complex, and now we are 
talking about half a billion for the George W. Bush complex.
    Disclosure is always the indispensable first step toward 
comprehensive reform, and it will enable the public and 
Congress to truly understand the scope of giving to 
Presidential library complexes and the potential for conflicts 
of interest or perceived conflicts that this fundraising may 
present.
    We hope that disclosure will help Congress ultimately 
grapple with other questions related to Presidential library 
fundraising.
    As you know, these libraries are public/private 
partnerships, and we have gotten a very good tutorial about how 
those work. Even so, the Federal Government annually spends 
tens of millions of dollars for their upkeep and operation. 
Does this partnership work? Should the Government directly take 
on the task of building modest repositories for Presidential 
records and papers and divorce itself from Presidents' 
increasingly ambitious plans to memorialize their achievements 
and to create a platform for their post-Presidential careers? 
Should sitting Presidents be banned from soliciting or 
accepting contributions or pledges of contributions to their 
Presidential libraries? Should there be a limit on the size of 
contributions to the libraries of sitting Presidents?
    This is not an academic question. In the past, the public 
trust has been shaken after news reports about Presidential 
pardons granted at the request of library donors.
    Should there be restrictions on the donations that foreign 
governments and foreign nationals may give to library 
complexes?
    We present these as questions because Common Cause 
acknowledges that these are tough issues, issues that will take 
more debate, discussion, and deliberation, but we believe these 
questions are worth considering, and we applaud the committee 
for examining this issue, and we look forward to working with 
you on getting this legislative proposal passed.
    [The prepared statement of Ms. Wexler follows:]

    [GRAPHIC] [TIFF OMITTED] T9022.021
    
    [GRAPHIC] [TIFF OMITTED] T9022.022
    
    [GRAPHIC] [TIFF OMITTED] T9022.023
    
    [GRAPHIC] [TIFF OMITTED] T9022.024
    
    [GRAPHIC] [TIFF OMITTED] T9022.025
    
    [GRAPHIC] [TIFF OMITTED] T9022.026
    
    Chairman Waxman. Thank you very much, Ms. Wexler.
    Ms. Krumholz.

                  STATEMENT OF SHEILA KRUMHOLZ

    Ms. Krumholz. Mr. Chairman and members of the committee, my 
name is Sheila Krumholz. I am executive director of the Center 
for Responsive Politics, a non-partisan, non-profit research 
organization based here in Washington that analyzes Federal 
campaign contributions, as well as other forms of money, and a 
lead influence in U.S. politics.
    I have been deeply involved in the research side of our 
organization's work for the better part of 15 years. Many know 
the Center for our award-winning Web site, OpenSecrets.org, 
where we make freely available our analysis of publicly 
disclosed information about the role of money in politics. We 
can do this because the financing of your campaigns is open to 
public scrutiny. But, as I will discuss today, the financing of 
Presidential libraries is not similarly transparent, although 
these campaign-like projects raise similar questions about 
potential influence buying.
    I thank the committee for this opportunity to speak.
    My predecessor, Larry Noble, testified on this matter 
before this committee in 2001, and my remarks today echo some 
of his from that hearing.
    Contributions to Presidential libraries fall into a 
category all their own, in a sense. While it takes a well-
funded campaign to build a Presidential library, it is not a 
political campaign, per se. There is, however, a sort of 
candidate at the center of this campaign, someone in a position 
of public trust, both while he is in office and, to a lesser 
extent, once he has left office. Herein lies the central 
concern: that those who donate money to Presidential libraries 
will, in return, receive special access to and favors from the 
President and the Federal Government. To minimize the potential 
for that sort of payback and to build trust among a citizenry 
that already questions the ethics of elected officials, public 
disclosure of contributions to Presidential library projects 
seems both appropriate and wise.
    As you know, contributions aggregating to more than $200 
are itemized and reported to the Federal Election Commission. 
The rules call for the disclosure of the amount and date of the 
donation, and the name, address, occupation, and employer of 
the donor. The FEC makes this information available on the 
internet to any interested citizen. The fact that the FEC deems 
the employment information, in particular, worthy of collection 
is an acknowledgment that donors sometimes, if not often, give 
to politicians with an economic self-interest in mind and a 
hope that their contribution will gain them access and 
influence over policy.
    The law has long recognized that our system of elections is 
strengthened when the public knows who is giving the money, and 
yet the public is still in the dark about several back door 
ways of buying influence in Washington, including the funding 
of Presidential libraries.
    To a President, a library with its accompanying and usually 
far larger museum, is a way to frame and preserve his legacy. 
For the President there is great self interest, because the 
library will live on long after the President's time in office 
and on earth have passed. I am reminded of the Vietnamese 
emperor who spent 9 years ruling but whose tomb took eleven 
years to build.
    Presidents begin fundraising for their libraries well 
before they leave office. According to press reports, site 
selection for President George W. Bush's Presidential library 
has been going on for some time, and a half billion fundraising 
campaign is imminent, 2 years before he leaves office. 
Fundraising for President Bill Clinton's library began in 1998, 
less than halfway through his second term.
    There is great potential here for corruption, apparent 
corruption, at least, and, even worse, real corruption. We know 
well how President Clinton's pardon of a six-figure contributor 
to his library fund, along with other political donations, has 
left the indelible impression with many that a Presidential 
pardon was purchased.
    The potential for corruption may be greater in the 
fundraising for Presidential libraries than in the campaign 
finance system. Donations to Presidential election campaigns 
are limited to a few thousand dollars. Those to Presidential 
libraries are not, and the checks can be written in the tens of 
millions of dollars.
    Corporations, unions, and other institutional interest 
groups cannot directly contribute to Presidential candidates; 
they can contribute to Presidential libraries. Foreign 
governments, foreign individuals, and corporations are 
prohibited from giving money to Presidential campaigns, but 
donations to Presidential libraries are permissible, even while 
the President is still in office. And, of course, the 
identities of large donors to Presidential campaigns are 
disclosed to the public, while donors to Presidential libraries 
can remain anonymous.
    As you are all aware, the public's perception of Washington 
is that money at the very least opens doors here. To agree that 
disclosure of contributions is appropriate as a way to minimize 
corruption and build public trust only gets us so far. There 
are many questions you will have to answer before disclosure of 
Presidential library contributions will become a reality. For 
example, what information must be disclosed, and by whom; how 
often, and for how long will disclosure be required; in what 
form must they disclose it; who will administer and enforce the 
disclosure. As history has shown us, a law unenforced may be 
worse than no law at all, because it leaves you with the false 
comfort that you have done something even as a problem 
persists.
    There are many questions to be addressed, and I merely 
raise some of them for you and the members of the committee to 
consider. Presidential libraries are repositories of history 
and scholarship for all Americans to enjoy, and, while they are 
built to honor politicians, their construction and operation 
should not be political. As Americans visit our Nation's 
Presidential libraries, their awe for the Presidents who served 
our country, their confidence in those leaders, and their trust 
in that system that honors them should not be tarnished by any 
suspicion that the public places they are visiting have been 
sold for the benefit of private interests.
    I have appreciated this opportunity to appear before you 
and will gladly answer any questions you have.
    Thank you.
    [The prepared statement of Ms. Krumholz follows:]

    [GRAPHIC] [TIFF OMITTED] T9022.027
    
    [GRAPHIC] [TIFF OMITTED] T9022.028
    
    [GRAPHIC] [TIFF OMITTED] T9022.029
    
    [GRAPHIC] [TIFF OMITTED] T9022.030
    
    Chairman Waxman. Thank you very much, all three of you, for 
your testimony. I think you have helped us a great deal with 
this subject.
    Donations to Presidential library foundations are difficult 
to categorize. They are not campaign contributions or political 
contributions in the standard sense. They are not being used to 
help a candidate win an elected office, nor are they simply 
contributions to a standard charity. The Presidential library 
foundation often begins to raise money to honor a President 
while the President remains in office.
    As we think about reforms in this area, we need to strike a 
balance. Through campaign finance reform, we have limited the 
amount of money individuals and corporations can provide to 
candidates and have dictated who can donate to campaigns. If we 
consider donations to these library foundations to be campaign 
contributions, we could set similar limits. On the other hand, 
if we look at the other end of the spectrum, foundations that 
raise money for museums and cultural centers are not required 
to disclose any information about their donors and, in fact, 
many of the largest donors often prefer to remain anonymous. If 
we consider donations to these foundations to be more like 
donations to a museum, we would allow the current system to 
remain unchanged.
    It is clear that these foundations are different. The draft 
legislation that the committee will be considering soon calls 
for the disclosure of all contributions of $200 or more that 
are given to the foundation through the period when the library 
is turned over to the Archives, but it does not limit 
contributions in any way.
    Ms. Krumholz, from your perspective does this strike the 
right balance? Are there other requirements that you would 
recommend we put in place?
    Ms. Krumholz. There is a whole host of questions that we 
came up with. I am sure you have come up with the same ones, 
and probably more. Those limits, in particular, seem logical to 
me, or basically sufficient. I was wondering if the limits that 
are used for political campaigns, for reporting to the Federal 
Election Commission, were considered, and why those limits were 
not adopted in this case.
    Chairman Waxman. So you would recommend that we adopt those 
same limits?
    Ms. Krumholz. No. Not necessarily. I was simply saying that 
is a model, one model.
    Chairman Waxman. Yes.
    Ms. Krumholz. I was wondering if that was considered and 
why it was rejected in favor of $200 limits per quarter. I do 
agree----
    Chairman Waxman. Well, $200 is the limit for reporting it. 
It can exceed that $200 limit.
    Ms. Krumholz. I am sorry, for disclosure of the 
contribution.
    Chairman Waxman. Right.
    Ms. Krumholz. Yes. I do agree. I think it is important that 
it is easier to make the limit based on the contribution and 
not the aggregate contribution, as it is, as the rules are at 
the FEC. I think that causes a greater burden on all involved 
and allows for some confusion about what is required. For 
instance, the Federal Election Commission, filers do not have 
to disclose the full information of a donor until they have 
reached the aggregate of $200 during the cycle. At that point 
it must be disclosed, but all contributions under that are not 
part of the Federal Election Commission computerized master 
data, and so there are questions about when does it get 
disclosed, when do you meet that aggregate limit, why aren't 
the contributions that are less than $00 disclosed. So I think 
it is simpler and more intelligible to all involved when it is 
simply a matter of each contribution being disclosed when it 
hits a certain threshold.
    Chairman Waxman. Ms. Wexler, what is your view on that same 
question? Does this proposal strike the right balance? Do you 
have any requirements you would recommend that we put in place 
in addition?
    Ms. Wexler. Well, I think that this is a very good first 
step proposal and it is very politically viable, but ultimately 
I do think, for a sitting President, it would be important for 
Congress to seriously consider some limits. And we do have the 
precedent, I believe of the limits on transitional funding, so 
that after the election but before a new administration takes 
over, the in-kind contributions received or the money donated 
to make that transition a little smoother is--there are limits 
in disclosure requirements in place for that, and the reason 
you can impose limits, I believe, is conditioned on the fact 
that the GSA is giving this transition team some resources. In 
the same way, with the Presidential libraries there is that 
public/private partnership, and I think that it might be a 
reason that one could condition, at least for a sitting 
President, some limits.
    I think the other question is about limits on contributions 
from foreign governments and foreign nationals. You know, there 
are some published accounts that say that the elder Bush's 
library was supported, at least initially, by 20 percent. Of 
that funding, 20 percent came from foreign sources, which, 
given the challenging environment, international environment we 
are in may be problematic. Those are things.
    The other, I think, you didn't ask me about this, but I 
also think that ultimately you want to consider again whether 
looking at contributions and disclosure of contributions just 
up to dedication, even though it is several years, is enough 
time, or whether you might want to go longer.
    Again, I think of the elder Bush's 80th birthday party 
where he raised $55 million. A portion of that money raised 
did, indeed, go to the Bush Library Foundation. The Embassy of 
Quatar was one of the donors. I think the Washington Times 
Foundation was another million dollar donor.
    So those are some of the things that need to be considered 
ultimately, not necessarily in this first proposal.
    Chairman Waxman. Where did the rest of the money go?
    Ms. Krumholz. Various charities.
    Chairman Waxman. Ms. Fawcett, what do you think about these 
ideas?
    Ms. Fawcett. Well, the administration hasn't taken a 
position on the bill at this point in time, but, speaking for 
the Archives, we are appreciative of the work of the staff in 
narrowing the bill to cover a President before he leaves office 
and until the transfer of the library to the Government.
    As the chairman spoke, donors to foundations, as the 
foundations age the donations become very locally based, and 
many are interested in anonymity. Their donations are to run 
programs like the Presidential Learning Center at the Truman 
Library, the Five Star Leaders Program at the Eisenhower 
Library, the Cabinet Program at the Ford Library. So, you know, 
the contributors to these foundations aren't interested at that 
point in any political influence; they are interested in 
promoting educational opportunities in their communities and 
bringing specific discourse into the library system.
    Chairman Waxman. You are assuming you know their 
motivations?
    Ms. Fawcett. Well, at least that is what they have given 
money to us for.
    Chairman Waxman. That is what they say.
    Ms. Krumholz, you worked as a researcher, and our draft 
legislation proposes that foundations disclose the date and 
amount of each contribution, the name of the contributor, and, 
if the contributor is an individual, the occupation of the 
contributor. The Archives is called on to post these quarterly 
reports on the Internet in a searchable, downloadable data 
base. Would you find this information, as a researcher, to be 
adequate to examine the donations made to the Presidential 
library foundations? And, if you had access to such a data base 
for an existing Presidential library foundation, what kind of 
searches would you perform and what would you hope to learn 
from them? And is there anything in particular that you would 
look out for?
    Ms. Krumholz. Yes. There is one. I would agree with that 
list of requirements with one exception, and that is that 
employment should also be required, not just occupation. Some 
of the occupations we get in the Federal Election Commission 
data include maverick, entrepreneur, you know, domestic 
engineer. So employer is really key to letting us know----
    Chairman Waxman. Opportunist could be one, too.
    Ms. Krumholz. I am sorry?
    Chairman Waxman. They could say opportunist.
    Ms. Krumholz. They could. Freedom fighter is another one. 
So it is important that employer be included. Making the data 
base downloadable is absolutely key. That provides anyone who 
wants to look into this data with the flexibility they need to 
find the patterns in the data that they might not otherwise see 
if they were simply using a limited search provided by the 
archives or by other entities. So making it downloadable I 
think is just a tremendous idea, would really help with 
allowing folks to be able to sort the data and see interesting 
dates, whether a contribution was given on a key date right 
before or right after policy decisions were made. Again, that 
is being able to slice and dice the data is how you find key 
information.
    Chairman Waxman. Thank you.
    Mr. Davis.
    Mr. Davis of Virginia. Let me just talk about former 
Presidents at this point. Once they are out of office and 
can't, at that point, I think, do any favors or use their 
office, what is the chance of corruption in a case like that, 
for terms of disclosure? I can understand if you have a sitting 
President or somebody maybe within a couple of years, but if 
somebody were to give $100,000 to a Jimmy Carter Library at 
this point and wanted to do it anonymously, what is the chance 
of corruption in a case like that?
    Ms. Wexler. Well, Representative Davis, I think our concern 
is this: right now we have three very active living Presidents. 
They are all on the world stage. They are all doing all kinds 
of things that have a policy implication. In two cases, you 
have one who is the father of a sitting President and in 
another case you have one who is the spouse of a sitting 
Senator and Presidential candidate. So I don't think just 
because they are former Presidents they are necessarily immune 
from being influenced or having influence.
    I mean, President Carter just wrote a very controversial 
book that challenges current domestic mideast policy, so I 
think that those are the concerns that arise for us.
    Mr. Davis of Virginia. Ms. Krumholz.
    Ms. Krumholz. Thank you. In addition to that, I would like 
to add that, should we be concerned about potentially 
corrupting effect of donations to the library of a President 
who has left office long ago? Maybe so, if he is still living, 
an ex-President still has prestige, influence, and even retains 
access to national intelligence as a courtesy. And, as I said 
earlier, foreign governments and interests can donate freely to 
Presidential libraries currently.
    Mr. Davis of Virginia. OK. So the fact that they have 
access to foreign intelligence, I mean, intelligence nobody 
else does, it makes them corruptible?
    Ms. Krumholz. No, no. But it does set them apart and I 
think provides another reason why disclosure should continue 
for some time beyond the point at which they leave office.
    Mr. Davis of Virginia. At this point I think for some time 
or forever? I mean, as long as they are alive you would keep 
these? Do you understand what I am saying?
    Ms. Krumholz. Right.
    Mr. Davis of Virginia. You are not talking about doing this 
for Herbert Hoover?
    Ms. Krumholz. I am not sure that I would say until they 
pass away, but clearly the current situation with President 
Bush's father having an active library fundraising and former 
President Bill Clinton actively fundraising while his wife is 
running for the President, the office, gives us a good 
indication of what can happen, and I would say we should 
consider it a good, long chunk of time beyond the point at 
which they leave office. Whether that should be until they pass 
away, I am not sure we would go that far.
    Mr. Davis of Virginia. OK.
    Ms. Krumholz. I would like to clarify a point I made 
earlier, if I may.
    Mr. Davis of Virginia. Sure.
    Ms. Krumholz. When I was talking about disclosure 
thresholds, we do not--I just want to make this point clear--we 
do not encourage limits on contributions necessarily. It is 
understandable that limits will--if we impose limits, 
particularly stringent limits, these buildings may never get 
built.
    Mr. Davis of Virginia. Right. That is a concern. A lot of 
people like to give these anonymously. They are just doing it 
with the right motive in mind. These Presidential libraries can 
be very important for researchers, for history, for everything 
else. If you make it too difficult, people just walk away from 
it, and then maybe the taxpayers get stuck with it. So I don't 
know what the balance is. You make a very good point. We could 
actually be in a period. It could be 28 years before you have 
nothing but Bushes and Clintons in the White House in theory, 
if you want to stretch this thing out. I mean, I guess I don't 
know what that does to poor Jimmy Carter.
    Ms. Fawcett, do you have any estimate on the costs to the 
Archives for managing and making this information available?
    Ms. Fawcett. I am sorry, I didn't hear the question.
    Mr. Davis of Virginia. Do you have any cost estimates for 
managing and making this information available?
    Ms. Fawcett. No, we don't. In fact, the Archives has some 
concern about our ability to do this. We are not the Federal 
Election Commission and we have no experience in making 
available this type of information. We also are in a peculiar 
position of working to partner with an organization that we are 
then responsible for reporting to the public donations, so in a 
way it could create some conflicts of interest for us, so that 
is a concern. We will work around whatever the legislation 
requires, but we would like to express some concerns about 
whether the National Archives is the appropriate reporting body 
for these disclosures.
    Mr. Davis of Virginia. I know in Mr. Duncan's bill we set a 
threshold of $5,000 for reporting once a President is out of 
office. The $5,000, this threshold corresponds to a trigger for 
contributions that tax-exempt foundations would disclose to the 
IRS. What do you think the proper threshold is for disclosure? 
Ms. Wexler, I ask you and Ms. Krumholz.
    Ms. Wexler. You know, I think I believe in Mr. Duncan's 
bill the threshold was $5,000, but the time limit was 
unlimited, right, for the disclosure? I think that is not a bad 
thing to think about, because, again, disclosure at $200 for a 
sitting President makes a lot of sense. It may not be a bad 
idea to raise the threshold once the President is no longer a 
sitting President, given the fact that we are seeing donations 
that we know about in the millions and tons of millions.
    Mr. Davis of Virginia. They get $100,000 for a speech, more 
than that for a speech, I mean.
    Ms. Wexler. Absolutely, but usually that is somehow--you 
know, there is usually some disclosure about that. People 
generally know a President's going rate for speeches. But I 
think $5,000 wouldn't necessarily be a terrible threshold post 
the time a President is in office. Are we happy with $200 as a 
threshold beyond that time? Yes.
    Mr. Davis of Virginia. OK.
    Ms. Krumholz. You mean prior to that time, while they are 
still in office?
    Ms. Wexler. Yes.
    Ms. Krumholz. I would concur with Celia's comments there, 
too.
    Mr. Davis of Virginia. OK.
    Ms. Krumholz. May I just interject?
    Mr. Davis of Virginia. Yes, please.
    Ms. Krumholz. Was the FEC considered as the receptacle for 
these reports as the agency collecting this information rather 
than the Archives? It seems like they have a system and it is 
working for them. I don't know if that would be an appropriate 
place to----
    Mr. Davis of Virginia. I don't know that it was. I mean, 
that is an interesting concept in terms of allocation of costs 
and having systems up and ready, so I think that is something 
we could give some consideration to. That is why we hold these 
hearings sometimes. We don't think of everything as we go 
through.
    How long should the disclosure take place now? Do you think 
it should just take place during the lifetime of a former 
President? I mean, if you are talking about a Nixon Library or 
an LBJ Library or something like that, should the disclosures 
continue?
    Ms. Wexler. I think certainly ideally it would be the 
lifetime of a President. And we have disclosure. If you pass a 
disclosure bill and you realize that, you know, giving just 
completely drops off after the first decade, then you may want 
to reconsider that, but I don't think there is any harm and 
perhaps a lot of good in extending that disclosure through the 
lifetime of a President.
    Mr. Davis of Virginia. All right. You don't have any 
concern that we should ban foreign contributions outright, do 
you?
    Ms. Wexler. I don't think it is a bad thing to think about, 
but I think it would require an enormous amount of deliberation 
and, you know, it is not necessarily a path you want to take.
    Mr. Davis of Virginia. OK. Ms. Krumholz, any thoughts?
    Ms. Krumholz. I would be curious how much of the current 
makeup of donations to Presidential libraries comes from 
foreign governments.
    Mr. Davis of Virginia. I would be interested to know, too.
    Ms. Krumholz. And foreign nationals.
    Mr. Davis of Virginia. And how much came while they were 
living and in office and how much afterwards. I think that is 
something we will ask the staff to look at.
    Ms. Krumholz. Exactly.
    Mr. Davis of Virginia. That would be interesting. I think, 
again, this is dollars the taxpayers don't have to pay, so any 
time we can get something out of foreign countries, that is 
probably a good thing.
    I have a couple minutes left. Let me yield to Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    If I can summarize quickly, it sounds like the logical 
things for this committee to consider are: one, moving this to 
the FEC; two, potentially harmonizing it with the FEC as though 
the President is still a candidate so that it would be 
consistent with the President's continued activity. If I can, 
using Ronald Reagan as an example, certainly in the last 5 
years of his life nobody would say that Ronald Reagan was still 
active, and thus, even though he was still alive, reporting 
under the nod of heads I think I am seeing, could be suspended. 
Would that be pretty consistent with what I am hearing each of 
you say you view as to this reporting requirement?
    Ms. Krumholz. Suspended during the last years of his life?
    Mr. Issa. In other words, if we harmonize the reporting 
requirement to the candidate, as we do normally. In other 
words, if we move this to the FEC, if I stop being a candidate, 
you know, stop all activity, the FEC says, OK, you have once a 
year, report us the balance, and that is it.
    The participation of the individual or individuals of 
influence is what specifically I am hearing pretty consistently 
triggers the question of whether or not money to these 
otherwise just normal charities--I mean, these libraries are 
just basically 501(c)(3)'s, as far as we are concerned, if you 
take out the power of the President or former President. They 
are pretty consistent with the way you would like us to view 
regulatory law in this case, including common cause, obviously?
    Ms. Wexler. I think so. I think the sort of question is 
when does a President not become active. It was pretty clear in 
President Reagan's case, but, you know, it is a kind of 
delicate question, and a President might be a little offended 
if all of the sudden he was declared inactive, which is also 
something to think about.
    Mr. Issa. I don't expect Nancy would have declared him 
inactive, Nancy Reagan.
    Ms. Wexler. No, I don't mean that. I just mean, you know, 
what is the harm in the disclosure extending until something as 
final as death, because presumably it is not going to be 
terribly burdensome.
    Mr. Issa. I guess my question----
    Chairman Waxman. Mr. Issa.
    Mr. Issa. Yes, Mr. Chairman.
    Chairman Waxman. The clock never turned red.
    Mr. Issa. OK. I will finish in one followup on the same 
thing.
    Chairman Waxman. One last question.
    Mr. Issa. If former Presidents were to say I no longer am 
doing anything whatsoever with my foundation, that declaration, 
whether he is living or not, would be substantially the same 
thing, wouldn't it? No one is ever going to disavow knowledge 
of their library, but hypothetically they can say I am out of 
it, as an alternative to death.
    Ms. Krumholz. My concern would be the situation we have 
here with President Bush and former President Clinton. Somebody 
who wishes to influence a Candidate Clinton or the current 
sitting President might well give to their father or their 
husband's Presidential library, regardless----
    Mr. Issa. I yield back the ranking member's unlimited time.
    Chairman Waxman. Thank you, Mr. Issa.
    Mr. Welch, I think you were here first. No questions? Mr. 
Hodes.
    Mr. Hodes. Thank you, Mr. Chairman.
    The Presidential libraries and their facilities seem to be 
growing exponentially larger. The complexes now contain the 
Presidential library, research facilities. They also appear to 
include museums and event centers and conference centers and a 
host of other amenities. I read in one of the reports about an 
apartment in one of the libraries. There may be academic 
centers.
    During the early phases of the planning and construction, 
the role of Presidential library foundations seems very clear. 
It raises the money, it ensures that the facility is built, and 
then, once the library is turned over to the National Archives, 
the relationship seems less clear. I am wondering if the panel 
could clarify.
    I will direct this to Ms. Fawcett. Can you explain the role 
of the Presidential library foundation once the facility has 
been turned over to the Archives, particularly with regard to 
the non-library spaces in the complex? Who is in charge? Who is 
minding the store?
    Ms. Fawcett. Well, you are correct in that the libraries 
have grown in size, and the largest library is the Ronald 
Reagan Library. Libraries built since the amendments passed in 
1986 that required an endowment come to the Government, in 
those libraries only a portion of the library is transferred to 
the Government. Usually 70,000 square feet or less comes to the 
Government. The rest of the venues in the library are the 
responsibility of the foundation to operate and maintain those.
    Now, what does come to the Government, Congressman, is the 
museum, the research room, the archival offices, the storage 
spaces, the education classrooms. What doesn't come to the 
archives are things like venues to use for conference space, an 
apartment, sometimes the cafeteria, the museum store. Those 
venues and those spaces remain with the foundation, and the 
foundation must continue to raise money to provide support for 
those venues in addition to supporting the public programming, 
education programming, and exhibits that are in the library, 
because the Government does not fund those.
    Last year the Presidential libraries cost the taxpayers $58 
million in directly appropriated funds. The foundations this 
year will be donating almost $11 million to various 
Presidential libraries for their use in programming operations.
    In terms of managing those spaces, when we accept a library 
we have a joint operating agreement with the foundation, and 
that agreement outlines the responsibilities of both parties. 
Often, for example, since the spaces are sort of interwoven 
throughout a building and we have this space and the foundation 
has that space, we divide up the utility cost and the 
operational cost, the maintenance cost of the building so that 
the foundation pays a percentage of those costs to the 
Government.
    Mr. Hodes. Now, the foundations are organized under State 
law as 501(c)(3)'s?
    Ms. Fawcett. Yes.
    Mr. Hodes. Is that correct?
    Ms. Fawcett. Yes.
    Mr. Hodes. And I suppose that the National Archives does 
not impose any limitations, therefore, on the way the 
foundations can use the collateral spaces, if you will, and 
what purposes they put them to?
    Ms. Fawcett. Well, we do work out in the joint operating 
agreement some understandings about the spaces. They understand 
that we try to represent a non-partisan library. Over time 
there may be an event that takes place in foundation space 
that, you know, a Republican candidate may come, but 
foundations and libraries generally invite the Democratic 
candidates to come also, you know. It is not normal for a----
    Mr. Hodes. I was interested to hear, when the chairman 
asked the question about the additional use to which the 
fundraising was put in that event of the 80th birthday, that 
there were other charities to whom money was donated. Do any of 
you on the panel think there is any issue that could arise in 
the foundation's ability to use those spaces collateral to the 
library for any purpose whatsoever, even though not related to 
the joint operating agreement with the National Archives? Any 
issue there?
    Ms. Wexler. I am not sure that this directly responds. I 
think that one of our concerns is that if you look at these 
libraries, you know, Robert Carow said they were America's 
pyramids erected to the memory of America's rules, and I don't 
know if I want to go that far, but there is that sense that you 
do get a lot of hagiography, and that a lot of what happens 
inside them is not necessarily--the access to the Presidential 
records is absolutely invaluable and, indeed, helped Mr. Carow 
write his wonderful series on Lyndon Johnson, but you have that 
other aspect of these complexes--the tourist sites, the sort of 
way they pay tribute and emphasize certain aspects of an 
administration's history, that, you know, make you wonder a 
little about what these are becoming and what the trend is. So 
I think that is a concern.
    Chairman Waxman. Thank you, Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman.
    Chairman Waxman. Your time is up.
    Mr. Issa, do you wish to be heard?
    Mr. Issa. Yes, I do, Mr. Chairman. Thank you, Mr. Chairman.
    You know, I think there is no question that we are going to 
need to have a question at some point about the libraries, 
where they are going and whether or not the Government support 
of them remains as appropriate as it has been in the past. I 
think that is beyond the scope perhaps of today's hearing. But 
because I am so privileged to have the representative of the 
National Archives, I have to say I would like to not digress, 
but it is somewhat related. Ms. Fawcett, you are familiar, 
obviously, with Sandy Berger taking either originals or 
duplicates of classified documents out of your care. As I 
understand, Nancy Smith is a direct report to you; is that 
correct?
    Ms. Fawcett. Yes, she is.
    Mr. Issa. And I guess one of the questions is: do you 
consider that your responsibility is only to make sure that 
these documents remain available for the future, or do you have 
a separate recognition that you have to protect classified 
documents from being taken out by anybody whatsoever, including 
Sandy Berger?
    Ms. Fawcett. Well, we feel that we have the responsibility 
to do both. We are the historical protectors of the records. In 
the case of Mr. Berger's visit to the National Archives, he 
came to the National Archives as an official representative of 
President Clinton. He was reviewing records for the 9/11 
Commission for his testimony and for President Clinton's 
testimony.
    Mr. Issa. OK, then, following up on that, why was Sandy 
Berger allowed to be alone with documents for which there are 
no duplicates with a briefcase and the ability--we don't know 
whether he did or he didn't, but he could have simply put them 
in his briefcase and left.
    Ms. Fawcett. Well----
    Mr. Issa. Was there special treatment, or would you do this 
for other people that came in representing a former President?
    Ms. Fawcett. As representatives under the Presidential 
Records Act, we did, indeed, treat people differently. We 
expected, and from 1989 when the Presidential Records Act first 
was implemented with Ronald Reagan's departure from the White 
House, through the time of Sandy Berger, we operated with an 
attitude of trust in these people. They had statutory 
responsibility, statutory authority to view the records. And 
yes, they were treated with respect. They were not regular 
researchers and they weren't treated as regular researchers. We 
expected Mr. Berger to be knowledgeable of the national 
security requirements. We had never had an issue. But, saying 
that, national security is ever evolving. I go through airports 
now and I take my shoes off. I didn't used to.
    Mr. Issa. OK. So----
    Ms. Fawcett. Now, if a Presidential representative comes 
to----
    Mr. Issa. Right. Looking forward, not back then, today if--
Sandy Berger would be inappropriate, but if anyone from a 
former administration came, can we be assured that they would 
never, never be allowed to be alone with any document and that 
they would not be given documents for which there were not 
catalogs and duplicates?
    Ms. Fawcett. Part of your question, they would not be alone 
with the documents in a production request. But, second, would 
they be given original materials? The answer to that is 
probably yes, because we have 9 billion pieces of paper in the 
National Archives and we don't make copies of all of them. 
There would be somebody with them in attendance while they 
worked with the records, and in many cases they might even be 
under camera surveillance.
    Mr. Issa. In many cases? So it is safe to say that Sandy 
Berger could never again, or someone like him, come in and take 
original documents such as e-mails or other desk copy 
information that might, in fact, have germaneness to current or 
future investigations? That is absolutely something you have 
closed?
    Ms. Fawcett. That is absolutely something that we strive to 
have not happen again.
    Mr. Issa. And do you feel there was any wrongdoing in the 
treatment that was allowed Sandy Berger, the special treatment 
as you have described it at the time?
    Ms. Fawcett. I think that it was the vigilance of our staff 
and their care and their concern that led to Sandy Berger's 
being caught with these records, and the Congress knowing about 
it, the 9/11 Commission knowing about it, and the National 
Security Council knowing about it. Without our employees' 
careful handling of this case, Sandy Berger would not have been 
caught.
    Mr. Issa. I thank you for your diligence and I thank you 
for the changes that you have implemented.
    Ms. Fawcett. Thank you, Mr. Issa.
    Mr. Issa. Mr. Chairman, I yield back.
    Chairman Waxman. Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    Ms. Fawcett, let me start with you. One of my family's 
cherished archives is a photograph my mother took on August 10, 
1962, very similar to the one I have in my hand----
    Ms. Fawcett. Were you at the Hoover Library?
    Mr. Braley [continuing]. At the dedication of the Herbert 
Hoover Presidential Library in West Branch, IA.
    Ms. Fawcett. Thank you.
    Mr. Braley. She held a Brownie Instamatic camera over her 
head.
    Ms. Fawcett. Yes.
    Mr. Braley. She is only 5'4'' and she got a picture of 
President Hoover and President Truman walking through thousands 
of people.
    One of the questions that I have for you and for everyone 
on the panel is I am concerned about the growing disparity 
between what I will call small market and large market 
Presidential libraries and the fact that we have talked about 
this exponential growth in terms of the dollar value of those 
libraries and the expanded components available to people who 
attend those facilities beyond simply a repository of 
Presidential documents and memorabilia.
    Have you thought about how we can preserve the original 
purpose of these libraries, which is to provide a repository of 
information and a museum experience for people from all across 
this country to experience a historical perspective of that 
Presidency without turning it into a theme park type 
environment where there are no limits on the surrounding 
opportunities available for experiencing that Presidency?
    Ms. Fawcett. Well, I don't view any of the libraries now as 
a theme park type of environment. I would say that one of the 
reasons for the expansion of spaces in libraries is to earn the 
revenue necessary to support the library. The funds that come 
from the Government, the directly appropriated funds, aren't 
sufficient for us to provide those educational experiences and 
the museum experiences to the public. We do not use any direct 
appropriated funds to pay for museum exhibits. Those are all 
funded either through revenues gained from admission to the 
library that are in the library's government-operated trust 
funds, or through donations of the foundations to the libraries 
to do that.
    Another area of earning revenue is through the rental of 
spaces in the library, to use the library as a venue for 
events. That has also assisted the libraries in being able to 
bring programs such as the Presidential time line, which 
launched in February. It is a project of all of the 
Presidential libraries to bring the digitized assets to school 
children and educators everywhere across the country. There are 
learning experiences on the Web site. There are assets you can 
search across the time line of the Presidency.
    We are striving in the Presidential library system to look 
at the Presidency as a time line as a whole, because events 
don't happen in any stovepipe way. The civil rights, the 
Vietnam War, the Middle East Conflict, all of these things 
extend over a period of time. Through the revenues that we gain 
in these projects, we are able to put together these sort of 
experiences for the American people, for students everywhere. 
We don't expect Congress to fund those. If you think it would 
be better for Congress to fund those, we can certainly accept 
the money, but that has not been our intent.
    Mr. Braley. No, but just talking about the earlier 
discussion of what type of revenues were generated from the 
Hoover Library and some of the smaller libraries, even if you 
take a 40 percent endowment requirement for a $500 million 
library, you are still talking about $300 million over and 
above that amount that is available, and, using another 
baseball analogy from Iowa, if you build it, they will come.
    Ms. Fawcett. Yes.
    Mr. Braley. When you have a Presidential library that has a 
think tank component to it, then what restrictions are there 
under the current statute that would prevent a theme park from 
being added as a component to a Presidential library?
    Ms. Fawcett. Well, that wouldn't be brought to the national 
archives and wouldn't be transferred to national archives. The 
think tank component of the proposed George W. Bush Library 
would not transfer to the Federal Government. That would be 
part of something that the foundation would be managing.
    Mr. Braley. I understand that, but my point is what 
prevents us from going to the next step under the current 
statute?
    Ms. Fawcett. Under the Presidential Libraries Act statute?
    Mr. Braley. Yes.
    Ms. Fawcett. Well, there is nothing, but the Government 
wouldn't accept that, so, I mean, the fact that the foundation 
could build it, yes, there is nothing to prevent the foundation 
from building whatever they want to build, but what they can 
transfer to the Government is codified, and it is up to 
Congress to decide whether or not to accept what is transferred 
to the Government. We prepare a report that we submit to you 
some time before the transfer, and it is up to Congress to make 
that decision whether this is an appropriate project for the 
Government to manage.
    Mr. Braley. Thank you.
    Chairman Waxman. Thank you, Mr. Braley.
    I want to thank the three of you for your testimony today. 
I think we have an excellent record for this committee to 
consider legislation.
    Thank you.
    If there is no other business from any other Members, the 
committee stands adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
